FEBRUARY 2, 2012
                                     REDACTED FOR PUBLIC RELEASE
  AUDIT REPORT




                                                        OFFICE OF AUDITS




    NASA’S MANAGEMENT OF SMALL BUSINESS
   INNOVATION RESEARCH AND SMALL BUSINESS
 TECHNOLOGY TRANSFER CONTRACTS FUNDED BY THE
                RECOVERY ACT




                                           OFFICE OF INSPECTOR GENERAL




                                                        National Aeronautics and
                                                            Space Administration




  REPORT NO. IG-12-009-R (ASSIGNMENT NO. A-11-005-00)
                    REDACTED FOR PUBLIC RELEASE




THE CONTRACT NUMBERS IN TABLE 2 AND APPENDIX B HAVE BEEN PARTIALLY REDACTED,
AS THE INFORMATION MAY BE CONSIDERED CONTRACTOR PROPRIETARY INFORMATION.




Final report released by:




Paul K. Martin
Inspector General




Acronyms

AIP          Acquisition Integrity Program Office
COTR         Contracting Officer Technical Representative
DCAA         Defense Contract Audit Agency
FAR          Federal Acquisition Regulation
G&A          General and Administrative
NSSC         NASA Shared Services Center
OIG          Office of Inspector General
OMB          Office of Management and Budget
PI           Principal Investigator
PIC          Procurement Information Circular
PMO          Program Management Office
SBIR         Small Business Innovation Research
STTR         Small Business Technology Transfer


                                                            REPORT NO. IG-12-009-R
FEBRUARY 2, 2012                                         REDACTED FOR PUBLIC RELEASE




                                                                                         OVERVIEW

       NASA’S MANAGEMENT OF SMALL BUSINESS INNOVATION
       RESEARCH AND SMALL BUSINESS TECHNOLOGY TRANSFER
            CONTRACTS FUNDED BY THE RECOVERY ACT

                                                                                           The Issue

  Congress created the Small Business Innovation Research (SBIR) Program in 1982 to
  encourage small and disadvantaged businesses to participate in federally funded research
  and development opportunities. Pursuant to statute, 11 Federal agencies are required to
  participate in the SBIR Program. 1 NASA, which awarded an average of $112 million
  annually to small businesses from 2004 through 2008, has the third largest SBIR Program
  in the Federal Government. Modeled after the SBIR Program, the Small Business
  Technology Transfer (STTR) Program is much smaller, but with the same basic
  requirements and phased funding structure. STTR Program funds also go to small
  business concerns for cooperative research and development; however, award recipients
  must work with non-profit research institutions, such as universities, to facilitate the
  transfer of technology.

  NASA’s SBIR and STTR Programs both use a three-phase approach to award contracts
  to small businesses for the development of technologies that meet NASA mission needs.
  The purpose of Phase 1 awards is to determine the commercial merit and feasibility of the
  proposed innovation. Phase 2 awards are for the development, demonstration, and
  delivery of that innovation. Phase 3 awards are for the application and commercialization
  efforts of the innovation and possible transitioning of the innovation into products and
  services for NASA mission programs.

  In 2009, NASA received $1 billion from the American Recovery and Reinvestment Act
  (Recovery Act) and allocated $24.4 million for SBIR and STTR contracts. 2 The
  Recovery Act requires a significant level of transparency and accountability to ensure
  that Recovery Act funds are expended in accordance with the Act’s requirements and to
  make information about these expenditures readily available to the public. The Recovery
  Act also requires Federal Offices of Inspector General to oversee agency compliance with
  the Office of Management and Budget’s (OMB) Implementing Guidance for the Act,
  which sets forth the requirements agencies must follow in awarding and modifying

  1
      In addition to NASA, the Departments of Agriculture, Commerce, Defense, Education, Energy, Health
      and Human Services, Homeland Security, and Transportation, the Environmental Protection Agency, and
      the National Science Foundation participate in the Federal SBIR Program.
  2
      NASA also received $52 million in reimbursable funds from other Federal agencies, including the
      National Oceanic and Atmospheric Administration and the Department of Energy.



REPORT NO. IG-12-009-R
 REDACTED FOR PUBLIC RELEASE                                                                      OVERVIEW



     contracts funded by the Recovery Act. 3 NASA’s Procurement Information Circulars
     provide additional guidance for implementing the Recovery Act at NASA.

     In January 2011, the NASA Office of Inspector General (OIG) issued a report on
     NASA’s management of its overall SBIR Program. 4 We found that while NASA’s initial
     choice of SBIR award recipients appeared objective and merit-based, the Agency’s 2008
     awards contained an estimated $2.7 million in unallowable and unsupportable costs. We
     also found that NASA lacked adequate procedures to ensure applicants’ past performance
     was considered in selecting Phase 2 awards, and NASA had not implemented appropriate
     internal controls to prevent fraud and abuse in its SBIR Program. We made a series of
     recommendations to NASA in that January report, including that the Agency implement
     specific internal controls that it was not then utilizing. NASA officials generally
     concurred with our recommendations and are currently implementing corrective actions.

     In an effort to ensure proper use of Recovery Act funds, NASA completed a risk
     assessment of its SBIR and STTR Programs in 2009. As a result of this effort, the
     Agency developed 13 internal controls intended to ensure the Act’s requirements would
     be met, including requiring contractors to certify quarterly that there was no fraud, waste,
     or abuse in their contracts; conducting cost/price analysis training for all technical
     personnel at the NASA Shared Services Center (NSSC); requiring NASA technical
     personnel to obtain contracting officer technical representative (COTR) certification; and
     requiring contractors to participate in virtual site visits with NASA officials. 5 See
     Appendix C for a complete list of NASA’s 13 Recovery Act internal controls.

     The overall objective of our audit was to determine whether NASA effectively managed
     SBIR and STTR contracts awarded with Recovery Act funds. Specifically, we examined
     whether cost, schedule, and performance milestones were met and whether NASA’s
     Recovery Act internal controls were properly implemented and operating effectively. We
     also reviewed the status of NASA’s implementation of the controls we recommended be
     adopted in our January 2011 report. See Appendix D for a listing of the recommended
     controls and the implementation status of each. To accomplish our objective, we
     reviewed all SBIR and STTR awards funded by the Recovery Act at Langley Research
     Center, Ames Research Center, and the Jet Propulsion Laboratory. In total, we reviewed
     37 contracts (48 percent) of the 77 SBIR/STTR Recovery Act funded awards. In addition,
     we interviewed Agency program and project officials, including the SBIR Program
     Manager and the SBIR Business Manager responsible for both the SBIR and STTR
     Programs. We also visited NSSC, which is responsible for the administrative oversight
     of all SBIR and STTR contracts. See Appendix A for details of the audit’s scope and
     methodology, our review of internal controls, and a list of prior audit coverage.

     3
         Office of Management and Budget, “Updated Implementing Guidance for the American Recovery and
         Reinvestment Act of 2009” (M-09-15, April 3, 2009).
     4
         NASA OIG, “Review of NASA’s Management of Its Small Business Innovation Research Program”
         (IG-11-010-R, January 12, 2011).
     5
         Technical personnel include program investigators and technical project managers.



ii                                                                                    REPORT NO. IG-12-009-R
OVERVIEW                                        REDACTED FOR PUBLIC RELEASE



                                                                                  Results

  We found NASA’s Recovery Act internal controls were generally effective in ensuring
  proper oversight, management, and transparency of Recovery Act funded SBIR/STTR
  contracts. The contracts we reviewed largely met cost, schedule, and performance
  milestones. In addition, 76 percent of contract deliverables were submitted within the
  agreed-upon timeframes, and NSSC implemented controls to further reduce the
  occurrence of late deliverables. However, we also found that due to resource limitations
  NASA did not implement three Recovery Act internal controls, including two controls
  relating to COTR certification and training. As a result, we noted seven instances where
  NASA employees designated as COTRs did not have the proper certification or training
  required by OMB guidance. In addition, we identified four contracts that contained
  unallowable equipment costs totaling $115,297. Lastly, we determined that NASA is
  making progress implementing the 14 internal controls identified in our January 2011
  audit report as necessary to prevent and detect fraud in the SBIR Program.

  Recovery Act Controls Were Generally Effective. Our review of 37 SBIR and STTR
  award contract files found that in most cases contractors met cost, schedule, and
  performance milestones. We found that 10 of the 13 Recovery Act internal controls
  NASA implemented in 2009 were operating effectively and led to improved management
  of the contracts. We identified one of these controls – virtual site visits through which
  NASA SBIR Program and project officials view contractors’ research facilities, confirm
  key contractor personnel, assess contractors’ progress, and ensure that contractors are
  complying with requirements – as a best practice. NASA SBIR Program officials told us
  that they intend to extend the practice of virtual site visits to all new SBIR/STTR Phase 2
  contractors. We believe the Agency could benefit from applying the other Recovery Act
  controls, including the three the Agency had not yet implemented, to all SBIR and STTR
  contracts as well.

  Late Deliverables Successfully Mitigated by NSSC Controls. Contractors submitted
  deliverables on time for 28 of the 37 contracts (76 percent) we reviewed. The remaining
  9 contractors submitted deliverables on average between 10 and 60 days after the
  established deadline. We found that NSSC actively monitors late deliverables for all
  SBIR and STTR contracts and has taken steps to ensure NASA does not make payments
  to contractors until the Agency has received and accepted the deliverables. In November
  2010, NSSC began generating a biweekly report that identifies late deliverables and
  describes the remedial actions taken by Agency personnel, such as phone calls or e-mails
  to the contractor.

  NSSC’s actions appear to have mitigated the problem of late deliverables. The frequency
  of late deliverables decreased by 60 percent in the first 5 months of 2011 – from 208
  instances of late deliverables for both Recovery Act and non-Recovery Act funded
  contracts in January 2011 to 84 in May 2011. Currently, NSSC does not provide its
  report regarding late deliverables to the SBIR Program officials. We believe providing
  this report to these individuals may result in additional reductions in late deliverables.


REPORT NO. IG-12-009-R                                                                          iii
REDACTED FOR PUBLIC RELEASE                                                                               OVERVIEW



     Three Recovery Act Controls Not Implemented. NASA officials told us that due to
     resource limitations they did not implement 3 of the 13 Recovery Act controls. First,
     NASA did not assign a full-time liaison from the Acquisition Integrity Program Office
     (AIP) to the SBIR and STTR Programs. However, even in the absence of this control we
     found that AIP was involved in developing the Recovery Act controls and was available
     on an as-needed basis to address any integrity issues that arose. According to SBIR
     Program officials, the Agency is working to identify an AIP liaison for both Programs
     and hopes to have this position filled in the near future.

     The other two Recovery Act controls NASA did not implement relate to training and
     certification of COTRs. COTRs are responsible for monitoring contractor performance,
     contract funding, and costs incurred by the contractor, as well as performing critical
     technical functions to ensure that contracts are managed properly. Obtaining proper
     certification and training is essential to performing these functions.

     We found that the COTRs responsible for seven different Phase 2 contracts did not have
     the proper certification or required training. In six instances, the COTRs had confirmed
     they attended training when in fact they had not. In the seventh instance, the assigned
     individual was provided a 6-month waiver to attend the training. However, he did not
     complete the training until nearly 18 months after this deadline and more than 9 months
     after the contract to which he was assigned had been completed. Moreover, at the
     completion of our fieldwork in November 2011, three of the COTRs without proper
     certification or training were still assigned to active contracts.

     On January 20, 2011, NASA issued Procurement Notice 04-55, “Appointment of
     Contracting Officer Technical Representatives,” which states that to improve internal
     controls in the SBIR and STTR Programs, the NASA Federal Acquisition Regulation
     (FAR) Supplement is revised to require that COTRs on newly awarded Phase 2 and
     Phase 3 SBIR and STTR contracts must be certified. This policy is a positive step
     forward.

     Unallowable Equipment Costs. We identified direct charges for equipment costs in 4 of
     the 37 contracts we reviewed for which the contract files contained no documentation or
     justification as to reasonableness or necessity for the equipment. The 2009 SBIR/STTR
     Program Solicitation states that NASA will not fund the acquisition of equipment,
     instrumentation, or facilities costs for Phase 1 and Phase 2 contracts as a direct cost. As a
     result, we question equipment costs totaling $115,297 and the associated general and
     administrative costs of $30,956 for a total of $146,253 in questioned costs. 6 Because we
     raised similar issues about the allowability of equipment costs in our January 2011 report,
     SBIR Program officials have taken steps to address this issue. Specifically, NASA
     changed its 2010 SBIR/STTR Program Solicitation Guide language to clarify when such
     costs are allowable and to make clear that such costs must be properly justified by the

     6
         General and administrative (G&A) costs are costs incurred by the contractor that are not directly related
         to the research and development project funded by NASA, but are a necessary cost of the contractor’s
         business.



iv                                                                                      REPORT NO. IG-12-009-R
OVERVIEW                                                REDACTED FOR PUBLIC RELEASE



  contractor and approved by NASA during contract negotiations. However, it remains to
  be seen whether these actions will address our underlying concerns.

  NASA Is Making Progress Implementing Controls Identified in Prior OIG Audit.
  The prior OIG audit recommended implementation of 14 internal controls to prevent and
  detect fraud in the SBIR Program, 9 of which were identified as critical. During the
  course of this audit, we considered the extent to which the Agency’s implementation of
  the Recovery Act controls had addressed our earlier recommendations. We also
  reviewed the implementation status of the 14 recommended controls to determine
  whether the Agency was on track to implement related corrective actions; however, we
  did not perform any testing to determine their effectiveness. We found that 1 of the 9
  critical controls and 1 of the 5 noncritical controls were addressed by the implementation
  of the Recovery Act controls. Additionally, 3 other recommended critical controls were
  partially addressed by the implementation of the Recovery Act controls. We also
  determined the Agency is making progress toward implementing the remaining controls
  identified in the January 2011 audit report. An update as to the implementation status of
  each control is documented in Appendix D.

                                                                         Management Action

  The Agency has effectively implemented 10 of the 13 Recovery Act controls it developed
  to help ensure proper administration of SBIR and STTR contracts funded by the
  Recovery Act. However, the Agency failed to implement 3 Recovery Act controls due to
  resource limitations. We recommend that the Agency consider extending these controls
  to its non-Recovery Act funded SBIR and STTR Programs. 7 In addition, NASA
  management should remedy the deficiencies we identified in this report in order to
  strengthen performance of these controls.

  Specifically, we recommended that the Recovery Act Implementation Executive work
  with the SBIR Program Executive and the Assistant Administrator for Procurement to:

        •   Revise program policy to require the application of the appropriate Recovery Act
            controls to improve the administration of the SBIR and STTR Programs.

        •   Provide the information from NSSC’s biweekly late deliverables report to the
            SBIR Program Manager and Business Manager at key decision points in program
            implementation so they are aware of any problem contractors and can take actions
            as necessary.

        •   Evaluate the feasibility of utilizing the virtual site visit technology for other
            NASA awards where funds for on-site surveillance are limited.


  7
      Two controls related to entering information in a Government-wide database maintained by the Recovery
      Act Board would not be applicable to contracts not funded by the Recovery Act.



REPORT NO. IG-12-009-R                                                                                        v
REDACTED FOR PUBLIC RELEASE                                                              OVERVIEW



        •   Issue a written policy reminder to all contracting officers to follow existing policy
            on the appointment and removal of COTRs who fail to meet training,
            certification, and educational requirements.

        •   Strengthen controls to ensure contracting officers and evaluators maintain proper
            documentation in the SBIR contract files to justify and validate equipment
            purchases.

     In response to our draft report, NASA’s Chief Financial Officer concurred with four of
     our recommendations, stating that the Agency’s Recovery Act Implementation Executive
     will work with NASA’s Assistant Administrator for Procurement and the SBIR/STTR
     Program Executive to address the recommendations and further strengthen the
     administration of the SBIR/STTR Programs (see Appendix E for a copy of the Chief
     Financial Officer’s comments). Specifically, by March 2012 the Assistant Administrator
     for Procurement will remind contracting officers to follow existing policy on the
     appointment of COTRs and on the removal of those who fail to meet training,
     certification, and educational requirements. In addition, by June 2012 the Agency will
     revise program policy to adopt, where appropriate, the controls that were piloted on the
     Recovery Act funded awards. The Agency will also perform an analysis of where virtual
     site visits may be applicable to other types of NASA awards, beyond the Recovery Act
     and provide the results of this analysis to the OIG. Further, by June 2012 the contracting
     officers at NSSC will provide the SBIR Program Manager and Business Manager an
     analysis of past performance of any of the proposers, to include issues such as late
     deliverables, to factor into the evaluation for new awards. We consider the Chief
     Financial Officer’s proposed actions responsive to our recommendations and will close
     the recommendations upon completion and verification of these actions.

     The Chief Financial Officer partially concurred with the fifth recommendation, stating
     that although she agreed that the contract files lacked proper documentation, she does not
     agree that the costs we identified were unallowable. In explaining her disagreement with
     our finding, she notes that such costs are allowable when they comply with all of the
     following requirements: reasonableness; allocability; generally accepted accounting
     principles and practices; terms of the contract; and FAR Subpart 31.2.

     We continue to believe that the costs we identified were unallowable. First, as noted in
     our report, NASA’s 2009 SBIR/STTR Program Solicitation explicitly states that the
     Agency will not fund the purchase of equipment as a direct cost. Moreover, FAR 31.201-
     3 states a cost is reasonable if, in its nature and amount, it does not exceed that which
     would be incurred by a prudent person in the conduct of competitive business. In the
     absence of any information in the contract files explaining the relevance of the equipment
     to performance of the contracts or the reasonableness of the amount expended, we were
     unable to determine whether these costs were prudent or reasonable.

     Despite the disagreement about our underlying finding, the Chief Financial Officer listed
     a number of completed and planned actions to ensure that costs are documented properly
     in SBIR/STTR files. Specifically, the Agency has trained NSSC contracting officers on


vi                                                                        REPORT NO. IG-12-009-R
OVERVIEW                                        REDACTED FOR PUBLIC RELEASE



  effective proposal evaluation, accounting for costs, and proper documentation of contract
  files; the format for price negotiation memorandums has been improved to ensure that all
  elements of cost, including equipment costs, are appropriately considered; and a new
  technical evaluators’ guide to support the proposal selection and award process is
  expected to be implemented in the coming selection cycle. We consider these actions to
  be responsive to the intent of our recommendation. Therefore, the recommendation is
  resolved and will be closed upon completion and verification of the actions.




REPORT NO. IG-12-009-R                                                                        vii
FEBRUARY 2, 2012                  REDACTED FOR PUBLIC RELEASE




                                                      CONTENTS

  INTRODUCTION
     Background _________________________________________ 1
     Objectives __________________________________________ 3

  RESULTS
     NASA Appropriately Managed SBIR/STTR Contracts Funded by
       the Recovery Act ___________________________________ 5

  APPENDIX A
     Scope and Methodology _______________________________ 13
     Review of Internal Controls ____________________________ 14
     Prior Coverage ______________________________________ 16

  APPENDIX B
     Schedule of Questioned Costs __________________________ 17

  APPENDIX C
     Recovery Act Controls ________________________________ 18

  APPENDIX D
     Controls Recommended in Prior Audit to Prevent and Detect
       Fraud and Abuse __________________________________ 20

  APPENDIX E
     Management Comments ______________________________ 28

  APPENDIX F
     Report Distribution ___________________________________ 32




REPORT NO. IG-12-009-R
FEBRUARY 2, 2012                                         REDACTED FOR PUBLIC RELEASE




                                                                                 INTRODUCTION


Background

  Congress created the Small Business Innovation Research (SBIR) Program in 1982 to
  stimulate technological innovation, increase participation by small and disadvantaged
  businesses in federally funded research and development, and increase private-sector
  commercialization of innovations derived from federally funded research and
  development. In 2000, Congress enacted legislation that extended and strengthened the
  SBIR Program and increased emphasis on pursuing commercial applications of SBIR
  project results. The strengthened SBIR Program provides funding for the critical startup
  and development stages of innovative research activities while encouraging the
  commercialization of technology, products, and services.

  NASA has the third largest SBIR Program of the 11 participating Federal agencies. 8
  NASA’s program is designed to help small businesses develop technologies that address
  NASA mission-driven needs. For example, an area of research funded under the SBIR
  Program is the development of Advanced Composite Technologies, which focuses on
  technologies to mature the use of composite structures and materials for launch vehicles
  and/or the lunar lander.

  Modeled after the SBIR Program, the Small Business Technology Transfer (STTR)
  Program is much smaller, but has the same basic requirements and phased funding
  structure. STTR Program funds are also awarded to small business concerns for
  cooperative research and development; however, award recipients must work with a non-
  profit research institution, such as a university, to facilitate the transfer of technology.

  As shown in the following figure, NASA awards contracts for both its SBIR and STTR
  Programs in three phases. Phase 1 awards are for determining the commercial merit and
  feasibility of the proposed innovation; Phase 2 awards are for the development,
  demonstration, and delivery of that innovation; and Phase 3 awards are for application
  and commercialization efforts of the innovation and possible transitioning of the
  innovation into products and services for NASA mission programs.




  8
      In addition to NASA, the participating Federal agencies are the Departments of Agriculture, Commerce,
      Defense, Education, Energy, Health and Human Services, Homeland Security, and Transportation, the
      Environmental Protection Agency, and the National Science Foundation.



REPORT NO. IG-12-009-R                                                                                        1
REDACTED FOR PUBLIC RELEASE                                                                     INTRODUCTION



                                          SBIR/STTR Contract Award Phases


         Phase 1                                 Phase 2                           Phase 3

              • provides small                       • provides for further           • provides the firm an
               businesses with a start-               development of the               opportunity to move
               up period to establish                 scientific and                   the technology
               the scientific,                        commercial promise of            innovations from
               technical, and                         research from Phase 1            Phase 2 to the
               commercial feasibility                • includes only firms             marketplace
               of the proposed                        that have successfully          • provides funds
               innovation                             completed Phase 1                through normal
              • awards of up to                      • awards of up to                 procurement
               $100,000                               $750,000                         processes at the
              • 6-month period of                    • 24-month period of              agency and/or private
               performance                            performance                      sector procurements




    According to the 2009 SBIR/STTR Program Solicitation, NASA’s objective is to select
    for award those proposals that offer the best value to the Government and to NASA’s
    SBIR and STTR Programs.

    Recovery Act Funded Awards. On February 17, 2009, the American Recovery and
    Reinvestment Act (Recovery Act) became law. The Recovery Act seeks to strengthen
    the U.S. economy by creating new jobs, spurring technological advances in science and
    health, and investing in infrastructure. The Act requires a significant level of
    transparency and accountability to ensure that funds are expended in accordance with
    requirements. NASA received $1 billion in Recovery Act funds and allocated
    $24.4 million for SBIR and STTR projects (see Table 1). 9

                                 Table 1. Recovery Act Funded SBIR/STTR Contracts

                                           Type of Award      No. of Contracts
                  Date of Award              and Phase           Awarded         Value of Awards
                  December 2009             SBIR Phase 1            31             $3,068,423
                  December 2009             STTR Phase 1            10               $998,787
                  January 2010              SBIR Phase 2            26            $15,611,901
                  January 2010              STTR Phase 2              3            $1,799,134
                  Various 2010              SBIR Phase 3              7            $2,929,217
                       Total                                        77           $24,407,462




    9
        NASA also received $52 million in reimbursable funds from other Federal agencies, including the
        National Oceanic and Atmospheric Administration and the Department of Energy.



2                                                                                   REPORT NO. IG-12-009-R
INTRODUCTION                                              REDACTED FOR PUBLIC RELEASE



  To ensure proper use of the Recovery Act funding for SBIR/STTR contracts, in June
  2009 NASA completed a risk assessment of its SBIR and STTR Programs. As a result of
  this assessment, the Agency identified 13 internal controls it believed would help ensure
  effective compliance with the requirements of the Recovery Act and further strengthen
  the implementation of the SBIR and STTR Programs at NASA:

             1. Issuing a Notice of Intent to alert contractors to Recovery Act requirements.

             2. Developing policies and guidelines to require all technical personnel to obtain
                contracting officer technical representative (COTR) certification. 10

             3. Adding a full-time SBIR/STTR liaison from the Acquisition Integrity
                Program Office.

             4. Enhancing the Electronic Handbook (EHB) to include NASA Account
                Management System (NAMS) security requirements.

             5. Completing a surveillance plan for each contract.

             6. Conducting Price Cost Analysis training at the NASA Shared Services Center
                (NSSC).

             7. Requiring firms to certify quarterly that there was no SBIR/STTR contract-
                related fraud, waste, or abuse.

             8. Having companies enter data into the Recovery Act website.

             9. Having NSSC validate data entered into the Recovery Act website.

            10. Checking the Central Contractor Registration (CCR) and Excluded Parties
                (debarred) databases.

            11. Conducting checks of the past performance database.

            12. Monitoring Center COTR assignments and delegation.

            13. Requiring SBIR/STTR Phase 2 contractors to participate in a virtual (via
                Internet) site visit with NASA procurement and program official.


Objectives

  The overall objective of our audit was to determine whether NASA effectively managed
  SBIR/STTR contracts funded by the Recovery Act. Specifically, we examined whether

  10
       Technical personnel include program investigators and technical project managers.



REPORT NO. IG-12-009-R                                                                            3
REDACTED FOR PUBLIC RELEASE                                                    INTRODUCTION



    cost, schedule, and performance milestones were met and whether the new Recovery Act
    internal controls identified by the Agency were properly implemented and operating
    effectively. To accomplish our objective, we reviewed all SBIR and STTR awards
    funded by the Recovery Act at Langley Research Center, Ames Research Center, and the
    Jet Propulsion Laboratory. In total, we reviewed 37 contracts, or 48 percent of all 77
    SBIR/STTR awards funded by the Recovery Act. We also performed a site visit at
    NSSC, which is responsible for the administrative oversight of all SBIR/STTR contracts.
    See Appendix A for details of the audit’s scope and methodology, our review of internal
    controls, and a list of prior audit coverage.




4                                                                     REPORT NO. IG-12-009-R
RESULTS                                                  REDACTED FOR PUBLIC RELEASE




                          NASA APPROPRIATELY MANAGED SBIR/STTR
                             CONTRACTS FUNDED BY THE RECOVERY ACT

             We found that NASA was generally effective in managing contracts funded by the
             Recovery Act and that the Agency had fully implemented 10 of the 13 internal
             controls it developed specifically for these contracts, including conducting virtual
             site visits of Phase 2 contractors. In our judgment, the Agency could benefit from
             applying these controls across both the SBIR and STTR Programs. 11 Further, the
             contracts we reviewed largely met cost, schedule, and performance milestones, and
             the contractors were generally providing deliverables on time. In addition, NSSC
             has implemented a control to ensure contractors are not paid until their deliverables
             are submitted and approved.

             NASA had not implemented three of the Recovery Act controls it identified in 2009,
             including two controls relating to COTR training and certification processes. We
             found that 7 of the 14 COTRs responsible for Phase 2 Recovery Act contracts did not
             have the certification or training required to perform their duties. We also identified
             four contracts in which $115,297 in equipment costs and $30,956 in associated
             general and administrative (G&A) costs were charged as direct costs without proper
             justification.


Recovery Act Controls Helped Ensure Proper Contract
  Performance

  Implementation of Recovery Act Controls. In June 2009, NASA’s Recovery Act
  Implementation Executive, Acquisition Integrity Program Office (AIP) representatives,
  and SBIR Program officials completed a risk assessment of the SBIR and STTR
  Programs in light of the requirements of the Recovery Act. 12 As a result of this
  assessment, they identified 13 internal controls they believed would ensure effective
  implementation of Recovery Act requirements. (Appendix C provides full details of
  NASA’s Recovery Act controls and their implementation status.)

  Based on interviews conducted with the COTRs and SBIR Program officials as well as
  our testing, review of contract file documents, and assessment of contract performance,
  we determined that NASA had fully implemented 10 of the 13 controls and that these 10
  controls were operating effectively. Based on our review, we believe the Agency would


  11
       Two controls related to entering information in a Government-wide database maintained by the Recovery
       Act Board would not be applicable to contracts that are not funded by the Recovery Act.
  12
       SBIR Program Officials are responsible for the programmatic oversight of NASA’s SBIR and STTR
       Programs and include the SBIR Program Manager and the SBIR Business Manager.



REPORT NO. IG-12-009-R                                                                                         5
REDACTED FOR PUBLIC RELEASE                                                                                   RESULTS



    benefit from applying these controls across the SBIR and STTR Programs to
    non-Recovery Act funded awards.

    Virtual Site Visits Have Helped NASA Monitor Contractor Performance. One of the
    Recovery Act internal controls NASA implemented is virtual site visits for Phase 2
    contractors. 13 NASA officials conduct these virtual site visits using Internet-based
    meeting software with visual and voice telecommunication. The visits enable NASA
    officials to view contractors’ research facilities, compare actual contractor personnel to
    proposed personnel, assess contractor progress, and ensure that contractors are complying
    with requirements without incurring the cost and time associated with traveling to the
    contractors’ physical locations. During the visits NASA personnel assess the
    contractors’:
           •   oversight of project activities;
           •   progress to date;
           •   research plan to achieve project goals;
           •   research accomplishments and their impacts to date;
           •   project management and financial status; and
           •   future research goals and activities.

    According to the SBIR Program Manager, the SBIR Program Management Office plans
    to start conducting virtual site visits on all new contractors that received a 2009
    SBIR/STTR Phase 2 non-Recovery Act award.

    We applaud NASA’s use of technology to develop a low-cost alternative to physical site
    visits and agree with NASA’s plan to expand these visits to all new Phase 2 SBIR and
    STTR contracts. We also believe that NASA should consider utilizing this tool to
    monitor other NASA awards where funding for on-site surveillance activities is limited.

    Deliverables Received on Time and Controls Implemented to Improve Timeliness.
    For 28 of the 37 contracts we reviewed (76 percent), the contractors submitted the
    required deliverables by the due dates identified in the contract and in NASA’s
    SBIR/STTR Electronic Handbook used by NSSC to administer the contracts. During our
    review, we found that NASA has taken several steps to help ensure that contractors meet
    their due dates.

    First, NASA has programmed the Electronic Handbook to prevent contractors from
    submitting invoices for payment until NASA technical personnel have received and
    accepted the required deliverables. We reviewed the validity of this function by checking
    contracts with late deliverables against payments recorded in NASA’s electronic financial

    13
         Virtual site visits have not been instituted for Phase 1 contracts due to the large number of awards, the
         6-month period of performance, and the low dollar amount (less than $100,000) associated with the
         contracts.



6                                                                                         REPORT NO. IG-12-009-R
RESULTS                                                 REDACTED FOR PUBLIC RELEASE



  management system. We noted no instances of payments made before deliverables had
  been recorded in the Electronic Handbook as received and accepted. In an effort to
  further reduce the incidence of late deliverables, the SBIR Program Management Office
  is working on enhancements to the Electronic Handbook to enable a more proactive
  means of notifying contractors and NASA technical personnel of approaching due dates.

  Second, NSSC generates a biweekly report that identifies late deliverables and the actions
  NASA personnel have taken in response, such as phone calls or e-mails to the contractor.
  NSSC sends the report to the contracting officer, who is responsible for ensuring that
  appropriate action is taken. Implemented in November 2010, this control has reduced the
  frequency of late deliverables by 60 percent. In January 2011, 2 months after the control
  was implemented, NSSC reported 208 instances of late deliverables for both Recovery
  Act and non-Recovery Act funded SBIR/STTR contracts. By May 2011, that number
  had decreased to 84 instances of late deliverables. However, NSSC does not provide its
  biweekly report to the SBIR Program or Business Managers. We believe providing this
  report to these individuals may result in additional reductions in late deliverables.

  Three Recovery Act Controls Not Implemented. We found that the Agency had not
  implemented three of the Recovery Act controls because, according to Program officials,
  of resource limitations. First, NASA did not assign a full-time SBIR/STTR Program
  liaison from AIP. One of AIP’s responsibilities is to increase fraud awareness and
  minimize waste and abuse within NASA programs. However, we found that AIP was
  involved in developing the 13 Recovery Act controls as well as in drafting the Notice of
  Intent through which NASA informed contractors of the special requirements applicable
  to Recovery Act funded contracts. In addition, AIP has been available as needed to help
  address integrity issues with the contracts as they arose. SBIR Program officials also told
  us that they are working to identify an AIP liaison for both the SBIR and STTR Programs
  and hope to have this position filled in the near future.

  The other two Recovery Act controls NASA has not implemented related to COTR
  certification and training. In the absence of these controls, we found that 7 of the 14
  individuals assigned as COTRs for Phase 2 contracts did not have the certification or
  training required to perform their duties. COTRs are the liaisons between NASA and the
  contractor and are responsible for performing critical technical functions to ensure that
  contracts are managed properly. Obtaining proper certification and training is essential to
  performing these functions. Moreover, Office of Management and Budget (OMB)
  guidance recommends that COTRs achieve and maintain this certification. 14

  In six of the seven instances in which the COTRS lacked proper certification, they
  incorrectly affirmed on the COTR delegation letter that they had been certified and
  attended the basic training. In the seventh instance, the COTR acknowledged that he did
  not have the required training but agreed to complete the training by March 25, 2010.
  However, this individual did not complete the training until September 16, 2011, nearly
  14
       OMB Memorandum, “The Federal Acquisition Certification for Contractor Officer Technical
       Representatives,” November 26, 2007.



REPORT NO. IG-12-009-R                                                                           7
REDACTED FOR PUBLIC RELEASE                                                                         RESULTS



    18 months after the agreed-upon date and 9 months after the completion of the Recovery
    Act contract to which he was assigned. Although we brought these issues to
    management’s attention in July 2011, because work on the Recovery Act funded
    contracts was nearing completion, none of the COTRs were removed from their duties or
    provided training. Moreover, at the completion of our fieldwork, in November 2011,
    three of these COTRs remained assigned to active contracts.

    The contracting officer responsible for all seven of these contracts was unaware of the
    COTR training issues until we brought them to her attention. She indicated the first six
    instances were the result of an administrative error due to the delegated COTR checking
    an incorrect box on the COTR delegation letter. The seventh instance resulted from the
    individual not having time to attend the training. We believe had the Agency
    implemented the Recovery Act controls relating to COTR certification and training, these
    issues could have been avoided.

    On January 20, 2011, NASA issued Procurement Notice 04-55, “Appointment of
    Contracting Officer Technical Representatives,” which states that to improve internal
    controls in the SBIR and STTR Programs, the NASA Federal Acquisition Regulation
    (FAR) Supplement is revised to require that COTRs on newly awarded Phase 2 and
    Phase 3 SBIR/STTR contracts are certified. While a positive step forward in
    strengthening internal controls over the SBIR/STTR Programs, this policy only applies to
    contracts awarded after January 20, 2011, and therefore will not remedy the issue of the
    existing COTRs that lack the required certification and training.

    NASA Paid Contractors for Unallowable Costs. We found that NASA awarded
    Recovery Act funded contracts that contained $115,297 in equipment costs that were
    unallowable based on the 2009 SBIR/STTR Program Solicitation and the lack of
    documentation supporting their necessity. Of the 37 contracts files we reviewed, we
    identified 4 in which equipment was charged as an “other direct cost.” However,
    NASA’s 2009 SBIR/STTR Program Solicitation states that “NASA will not fund the
    purchase of equipment, instrumentation, or facilities under SBIR/STTR contracts as a
    direct cost.” It further provided that the offeror should describe the relevant facilities and
    equipment, their availability, and those to be acquired to support the proposed
    activities. 15 As a result, we question these costs as well as an additional $30,956 in
    associated G&A costs for a total of $146,253 in questioned costs.




    15
         The 2009 SBIR/STTR Program Solicitation was released prior to NASA receiving Recovery Act funds;
         therefore, the award process was not subject to NASA’s Recovery Act controls.



8                                                                                REPORT NO. IG-12-009-R
RESULTS                                                 REDACTED FOR PUBLIC RELEASE



                                 Table 2. Unallowable Equipment Costs

                   Contract                                              General and           Total
                   Number            Equipment         Equipment        Administrative       Questioned
    Phase         (redacted)          Charged            Costs             Costs*              Costs
                                  Optics and
    Phase 1      NNX10RA          electronics            $12,000             $780             $12,780
                                  Supplies for an
    Phase 1      NNX10RA          analyzer system         $7,500           $1,411               $8,911

    Phase 2      NNX09RA          Not Specified          $13,797           $6,346             $20,143
                                  Camera and
    Phase 2      NNX10RA          electronics             82,000           22,419             104,419
     Total                                              $115,297            $30,956            $146,253
  * G&A costs are costs incurred by the contractor that are not directly related to the research and
    development project funded by NASA, but are a necessary cost of the contractor’s business.


  We found no information in the contract files explaining the relevance of the equipment
  to performance of the contracts. In addition, the pre-negotiation technical review
  questions contained no explanation of the need for the equipment and the post-award
  reviewer did not identify why the equipment was needed to achieve the objectives of the
  contract. Accordingly, we were unable to determine whether these costs were reasonable
  and necessary.

  Comparable to the finding in our 2011 audit report, contracting officers allowed these
  costs as other direct costs without proper justification. In their response to the January
  2011 OIG report, NASA management stated that the technical evaluators did not object
  to the proposed equipment costs, the authority to allow equipment purchases was within
  the discretion of the contracting officer, and that the solicitation might not have
  accurately reflected the Agency’s intent regarding the allowability of equipment costs.
  To address this issue, NASA changed the 2010 SBIR/STTR Program Solicitation Guide
  language to clarify the allowability of equipment costs for 2010 awards, including the
  need for the purchase to be properly justified by the offeror and approved by NASA
  during contract negotiations. However, the wording in the 2009 SBIR/STTR Program
  Solicitation used for award of Recovery Act funded contracts did not allow for equipment
  costs to be charged as direct costs; therefore, we question the equipment and associated
  G&A costs charged to these contracts. (See the Schedule of Questioned Costs,
  Appendix B.)

  Implementation of Controls Identified in Prior OIG Audit. In our January 2011 audit
  report we recommended that NASA implement 14 internal controls to help prevent and
  detect fraud in the larger SBIR Program. During the course of this audit, we reviewed the
  status of the Agency’s efforts to implement our recommendations and whether the
  Agency’s new Recovery Act controls, if applied across the SBIR/STTR Programs, would
  remedy any of the control deficiencies identified in the January 2011 report. However,
  we did not perform testing to determine the effectiveness of the controls. We found that
  issues related to 2 of the 14 controls (14 percent) were addressed through implementation



REPORT NO. IG-12-009-R                                                                                    9
REDACTED FOR PUBLIC RELEASE                                                               RESULTS



     of the Recovery Act controls. Additionally, 3 other recommended controls were partially
     addressed by the implementation of the Recovery Act controls. We also determined the
     Agency is making progress toward implementing corrective actions to address the
     remaining controls. The status of each control is provided in Appendix D. However, as
     previously stated, the status of the controls is based solely on interviews conducted and
     does not constitute a comprehensive review of NASA’s efforts to implement these
     controls and remedy the January 2011 report’s findings.


Recommendations, Management’s Response, and Evaluation of
  Management’s Response

Recommendation 1. The Recovery Act Implementation Executive should work with the
SBIR Program Executive and Assistant Administrator for Procurement to revise program
policy to require the application of the Recovery Act controls, as appropriate, to improve the
administration of the SBIR and STTR Programs.

     Management’s Response. The Chief Financial Officer concurred with this
     recommendation, stating that NASA’s SBIR/STTR Program Executive and Program
     Manager will revise program policy by June 2012 to adopt, where appropriate, the
     controls piloted on the Recovery Act funded awards. Of the 13 controls that NASA
     adopted, 3 related to notification and reporting provisions specific to the Recovery Act,
     and therefore are not applicable to the Agency’s broader Program. Eight of the
     remaining 10 controls have been applied to the broader Program, and the Agency is
     working to implement the remaining two by June 2012.

     Evaluation of Management’s Response. Management’s proposed actions are
     responsive to the intent of the recommendation. Therefore, the recommendation is
     resolved and will be closed upon completion and verification of the proposed actions.

Recommendation 2. The Recovery Act Implementation Executive should work with the
SBIR Program Executive and Assistant Administrator for Procurement to coordinate with
NSSC’s Lead SBIR Contracting Officer to develop and implement procedures to provide the
information from the biweekly late deliverables report to the SBIR/STTR Program Manager
and Business Manager at key decision points in program implementation. This would
enable them to be aware of any problem contractors with late deliverables so that they can
take additional action as necessary, including limiting the award of any future contracts.

     Management’s Response. The Chief Financial Officer concurred with this
     recommendation, stating that by June 2012 the contracting officers at NSSC will provide
     the SBIR/STTR Program Manager and Business Manager an analysis, at the time of new
     proposal selection, that includes past performance issues of the proposers so that this
     information may be factored into evaluations.




10                                                                       REPORT NO. IG-12-009-R
RESULTS                                           REDACTED FOR PUBLIC RELEASE



   Evaluation of Management’s Response. Management’s proposed actions are
   responsive to the intent of the recommendation. Therefore, the recommendation is
   resolved and will be closed upon completion and verification of the proposed actions.

Recommendation 3. The Recovery Act Implementation Executive should work with the
SBIR Program Executive and Assistant Administrator for Procurement to evaluate the
feasibility of utilizing the virtual site visit technology for other NASA awards where funds
for on-site surveillance are limited.

   Management’s Response. The Chief Financial Officer concurred with this
   recommendation, stating the Recovery Act Implementation Executive will work with the
   Assistant Administrator of Procurement to perform an analysis of where this best practice
   may be applicable to other types of NASA awards beyond the Recovery Act. The results
   of the analysis will be provided to the OIG by June 2012.

   Evaluation of Management’s Response. Management’s proposed actions are
   responsive to the intent of the recommendation. Therefore, the recommendation is
   resolved and will be closed upon completion and verification of the proposed actions.

Recommendation 4. The Recovery Act Implementation Executive should work with the
SBIR Program Executive and Assistant Administrator for Procurement to issue a written
policy reminder to all contracting officers to follow existing guidance on the appointment
and removal of COTRs who fail to meet training, certification, and educational requirements
to ensure they do not perform oversight on NASA contracts until these requirements are
met.

   Management’s Response. The Chief Financial Officer concurred with this
   recommendation, stating that by March 2012 the Assistant Administrator for
   Procurement will remind contracting officers to follow existing policy on the
   appointment and removal of COTRs who fail to meet training, certification, and
   educational requirements.

   Evaluation of Management’s Response. Management’s proposed actions are
   responsive to the intent of the recommendation. Therefore, the recommendation is
   resolved and will be closed upon completion and verification of the proposed actions.

Recommendation 5. The Recovery Act Implementation Executive should work with the
SBIR Program Executive and Assistant Administrator for Procurement to strengthen
controls to ensure contracting officers and evaluators maintain proper documentation in the
SBIR contract files to justify and validate the necessity of equipment purchases.

   Management’s Response. The Chief Financial Officer partially concurred with this
   recommendation, agreeing that the contract files lacked proper documentation but
   rejecting the underlying finding that the equipment costs were unallowable.




REPORT NO. IG-12-009-R                                                                         11
REDACTED FOR PUBLIC RELEASE                                                               RESULTS



     However, the Chief Financial Officer also stated that corrective action has already been
     taken to resolve the documentation issues we identified. Specifically, the Agency has
     trained the contracting officers at NSSC on effective proposal evaluation, accounting for
     costs, and assuring that proper documentation of this evaluation is in the contract files;
     the format for the price negotiation memorandums has been improved to assure that all
     elements of cost, including equipment costs, are appropriately considered; and a new
     technical evaluators’ guide to support the proposal selection and award process is
     expected to be implemented in the coming SBIR/STTR selection cycle.

     Evaluation of Management’s Response. We continue to believe that the costs we
     identified were unallowable. First, as noted in our report, NASA’s 2009 SBIR/STTR
     Program Solicitation explicitly states that the Agency will not fund the purchase of
     equipment as a direct cost. Moreover, FAR 31.201-3 states a cost is reasonable if, in its
     nature and amount, it does not exceed that which would be incurred by a prudent person
     in the conduct of competitive business. In the absence of any information in the contract
     files explaining the relevance of the equipment to performance of the contracts or the
     reasonableness of the amount expended, we were unable to determine whether these costs
     were prudent or reasonable.

     Despite the disagreement about our underlying finding, the Chief Financial Officer listed
     a number of completed and planned actions to ensure that costs are documented properly
     in SBIR/STTR files. We consider these actions to be responsive to the intent of our
     recommendation. Therefore, the recommendation is resolved and will be closed upon
     completion and verification of the actions.




12                                                                       REPORT NO. IG-12-009-R
APPENDIXES                                      REDACTED FOR PUBLIC RELEASE




                                                                         APPENDIX A


Scope and Methodology

  We performed this audit from January 2011 through January 2012 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives.

  The scope of our audit included a review of all Phase 1, 2, and 3 contracts funded with
  Recovery Act funds. This universe totaled 77 contracts with a combined value of
  $24.4 million. We selected and reviewed a judgmental sample of 37 of these contracts,
  which amounted to 48 percent of the total universe: 18 Phase 1 awards, 14 Phase 2
  awards, and 5 Phase 3 awards. We reviewed all Small Business Innovation Research
  Program (SBIR) and Small Business Technology Transfer Program (STTR) awards
  funded by the Recovery Act and programmatically managed by the three NASA Centers
  with the highest concentration of awards – Langley Research Center, Ames Research
  Center, and the Jet Propulsion Laboratory. We also performed a site visit at the NASA
  Shared Services Center (NSSC), which is responsible for the administrative oversight of
  all SBIR/STTR contracts. We also conducted interviews of SBIR Program officials at
  Headquarters.

  As part of our review, to determine if the implementation of the Recovery Act controls
  was effective as well as determining whether cost, schedule, and performance milestones
  were met on Recovery Act contracts, we interviewed Agency program and project
  officials and reviewed contract files, technical reports produced by NASA’s Electronic
  Handbook, and other documentation. Our fieldwork also included interviews of SBIR
  Program officials to assess the progress of the implementation of internal controls
  identified in the prior OIG audit. Because the prior audit focused on program year 2008
  SBIR awards and our audit focused on program year 2009 SBIR/STTR awards funded by
  the Recovery Act, many of these controls were not implemented prior to the start of our
  audit.

  Our process for reviewing documentation included:

     1. Reviewing requirements for SBIR/STTR contracts as stated in the 2009 NASA
        SBIR/STTR Solicitation.

     2. Interviewing SBIR/STTR Program and technical officials, procurement officials,
        technical evaluators, COTRs, and contracting support personnel to identify
        specific procedures for reviewing and awarding contracts under the Recovery Act.


REPORT NO. IG-12-009-R                                                                        13
REDACTED FOR PUBLIC RELEASE                                                           APPENDIX A



        3. Reviewing contract files for the judgmentally selected sample of 37 program year
           2009 SBIR/STTR Recovery Act contracts to assess whether costs were properly
           accounted for and supported.

     Use of Computer-Processed Data. We used data from two databases: (1) NASA’s
     Electronic Handbook, and (2) SAP, NASA’s financial management system used to
     process invoices, which is accessible by NASA personnel and SBIR/STTR contractors.
     The Electronic Handbook is used for all SBIR/STTR transactions such as proposal
     submissions, proposal evaluations, documentation submissions, and correspondence. We
     used the Electronic Handbook data for the fiscal year 2009 contracts we reviewed. We
     compared the data obtained from the Electronic Handbook to contract file data provided
     to determine the reliability and accuracy of the data extracted from the Electronic
     Handbook. Due to the presence of late deliverables on nine contracts in our sample, we
     ran SAP reports to ensure payment was not made to the contractor prior to the acceptance
     of the late deliverable. We reviewed the invoices submitted by the contractor in SAP and
     traced them back to the applicable data in the Electronic Handbook and the contract files.
     Based on our testing, we verified that the date payments were made was consistent with
     the date the deliverables were accepted by technical personnel; we noted no
     inconsistencies. As we noted no issues based on the comparisons between the source
     data and the computer processed data, we determined the systems we utilized, for
     purposes of our audit, to be reliable.


Review of Internal Controls

     Our review of the Recovery Act internal controls included a review of NASA’s policies
     and procedures as they related to the Recovery Act. Specific controls were established
     over SBIR/STTR contracts funded by the Recovery Act (see Appendix C) as a way to
     mitigate fraud, waste, and abuse in the program and ensure compliance with Recovery
     Act requirements. We reviewed the requirements of the Recovery Act as identified in the
     “Updating Implementing Guidance for the American Recovery and Reinvestment Act of
     2009,” issued by OMB, April 3, 2009. We also reviewed the “American Recovery and
     Reinvestment Act Implementation Report for NASA Small Business Innovation
     Research (SBIR) and Small Business Technology Transfer (STTR)” issued by the
     Recovery Act Implementation Team, on October 6, 2010. Included in this
     Implementation Report was the Procurement Information Circular (PIC) 09-06B,
     “Contracting with Recovery Act Funds,” July 8, 2009. We reviewed this PIC and
     subsequent PICs issued through November 23, 2010. The PICs we reviewed are
     designed to document the Agency’s internal control requirements and we used this
     document to ensure that NASA was complying with Recovery Act Provisions, OMB
     Guidance and NASA policy.

     In addition to reviewing the above guidance, we also met with the Recovery Act
     Implementation Executive and other NASA SBIR Program officials to gain an
     understanding of the Recovery Act controls and their implementation. Our interviews


14                                                                      REPORT NO. IG-12-009-R
APPENDIX A                                      REDACTED FOR PUBLIC RELEASE



  with NASA officials were used as a means to discuss contract performance processes and
  provide supporting documentation to ensure the Recovery Act internal controls were
  functioning effectively. As discussed in this report, our recommendations, if
  implemented, will improve these Recovery Act controls and enable the majority of them
  to be expanded to both the SBIR and STTR Programs.

  For our review of internal controls, we also reviewed guidance from OMB Circular
  No. A-123 “Management’s Responsibility for Internal Control,” December 21, 2004, and
  NASA’s fiscal year 2010 report on OMB Circular A-123, Appendix A, “Internal Control
  Over Financial Reporting.” In addition, we reviewed the Government Accountability
  Office’s “Standards for Internal Control in the Federal Government,” November 1999,
  and “Internal Control Management and Evaluation Tool,” August 2001.

  In accordance with OMB Circular A-123, we reviewed NASA’s “Certification of
  Reasonable Assurance over Internal Controls” for the Innovative Partnership Program
  (IPP) and for the Office of Small Business, which are responsible for some of the
  functions of the SBIR and STTR Programs. Both offices performed self-assessments on
  the internal controls over the effectiveness and efficiency of operations and compliance
  with laws and regulations. No internal control weaknesses relevant to this audit were
  identified in the self-assessments. In addition, management from both offices also
  provided assurance that there were no material weaknesses found in the design or
  operation of these internal controls.

  Further, we reviewed the internal controls from the prior OIG report where specific
  controls were identified that would prevent and detect fraud and abuse in SBIR contracts.
  The prior OIG report identified 24 controls necessary to prevent and detect fraud and
  abuse. Of these 24 controls, 14 were determined to be absent from SBIR Program
  processes. During the course of our audit, we reviewed the Agency’s progress in
  implementing these 14 internal controls; however, we did not perform any testing to
  determine their effectiveness. Our review of the implementation status of these 14
  controls was limited to interviews with SBIR officials and provides evidence of the steps
  the Agency has taken implement correct actions to address the issues uncovered in the
  previous SBIR audit.




REPORT NO. IG-12-009-R                                                                        15
REDACTED FOR PUBLIC RELEASE                                                        APPENDIX A



Prior Coverage

     During the last 5 years, the NASA Office of Inspector General (OIG),the Government
     Accountability Office (GAO), the National Research Council (NRC), and the Department
     of Energy (DOE) have issued 6 reports of particular relevance to the subject of this
     report; these reports are listed below. Unrestricted reports can be accessed over the
     Internet at http://oig.nasa.gov/audits/reports/FY12 (NASA OIG), http://www.gao.gov
     (GAO), http://www.nap.edu/catalog (NRC), and http://www.ig.energy.gov (DOE).

     NASA Office of Inspector General

     “Review of NASA’s Management of Its Small Business Innovation Research Program”
     (IG-11-010-R, January 12, 2011)

     “Fraud, Waste, and Abuse in the SBIR Program” Testimony of Thomas J. Howard,
     Acting NASA Inspector General, August 6, 2009

     Government Accountability Office

     “Small Business Innovation Research: Observations on Agencies’ Data Collection and
     Eligibility Determination Efforts” (GAO-09-956T, August 2009)

     “Recovery Act Contracting Approaches and Oversight Used by Selected Federal
     Agencies and States” (GAO-10-809, July 2010)

     National Research Council

     “An Assessment of the Small Business Innovation Research Program at the National
     Aeronautics and Space Administration” (2009)

     Department of Energy

     “Management Controls over Monitoring and Closeout of Small Business Innovation
     Research Phase II Grants” (OAS-M-08-09, July 2008)




16                                                                   REPORT NO. IG-12-009-R
APPENDIX B                                              REDACTED FOR PUBLIC RELEASE




                                                SCHEDULE OF QUESTIONED COSTS


                                Questioned Equipment Costs*

                   Contract                          General and            Total
                   Number          Equipment        Administrative        Questioned
    Phase         (redacted)         Costs              Costs               Costs            Page
  Phase 1        NNX10RA              $12,000               $780            $12,780              10
  Phase 1        NNX10RA               $7,500             $1,411              $8,911             10
  Phase 2        NNX09RA              $13,797             $6,346            $20,143              10
  Phase 2        NNX10RA              $82,000           $22,419            $104,419              10
     Total                         $115,297             $30,956           $146,253
  * Questioned Costs are expenditures that are questioned by the OIG because of an alleged
    violation of legal, regulatory, or contractual requirements, are not supported by adequate
    documentation at the time of the audit, or are unnecessary or unreasonable.




REPORT NO. IG-12-009-R                                                                                17
REDACTED FOR PUBLIC RELEASE                                                                         APPENDIX C




                                                                 RECOVERY ACT CONTROLS

     This appendix table lists NASA’s 13 Recovery Act internal controls, showing their
     implementation status as well as additional notes on implementation status.

                   Recovery Act Control                    Implemented?                   Notes

     1.   Issue a Notice of Intent to each company                        This control is operating effectively
          awarded a Recovery Act contract to inform                       on Recovery Act contracts.
          all parties and participants of the Recovery
          Act reporting provisions of the SBIR/STTR            Yes
          Programs and to describe the additional
          surveillance requirements to reduce potential
          for fraud, waste, and abuse.
     2.   Develop policies and guidelines to require all                  We identified seven instances where
          technical personnel to obtain COTR                   No         a COTR was not certified.
          certification.
     3.   Add a SBIR/STTR Program liaison from the                        According to NASA AIP personnel,
          Acquisition Integrity Program Office (AIP).                     there is insufficient staff to provide
                                                                          this support. However contracting
                                                               No
                                                                          officers at NSSC told us that when
                                                                          the AIP needs to be consulted,
                                                                          NSSC will do so.
     4.   Enhance the Electronic Handbook (EHB) to                        This control is operating effectively
          include NASA Account Management System               Yes        on Recovery Act contracts.
          (NAMS) security requirements.
     5.   Complete a surveillance plan for each                           This control is operating effectively
          contract, identifying methods and procedures                    on Recovery Act contracts.
          that the Government will use to review and
          evaluate contractor performance to ensure
                                                               Yes
          that the proposed contract standards detailed
          in the contract and the scope of work are
          achieved along with special requirements
          under the Recovery Act.
     6.   Conduct cost/price analysis training at                         Training has been provided for
                                                               Yes
          NSSC.                                                           personnel at NSSC.
     7.   Require firms to certify no waste, fraud, or                    This control is operating effectively
                                                               Yes
          abuse on a quarterly basis.                                     on Recovery Act contracts.
     8.   Require contractors to enter data into the                      This control is operating effectively
          Recovery Act financial reporting website on          Yes        on Recovery Act contracts.
          a quarterly basis.
     9.   Require NSSC to validate the data entered at                    This control is operating effectively
                                                               Yes
          the Recovery Act website.                                       on Recovery Act contracts.




18                                                                                  REPORT NO. IG-12-009-R
APPENDIX C                                               REDACTED FOR PUBLIC RELEASE



               Recovery Act Control                    Implemented?                  Notes

  10. Check the Central Contractor Registration                       This control is operating effectively
      database and Excluded Parties (Debarred)                        on Recovery Act contracts.
                                                           Yes
      databases to ensure the contractor is eligible
      for Federal awards.
  11. Conduct checks of the past performance                          This control is operating effectively
      database, obtain 3 additional references, and        Yes        on Recovery Act contracts.
      check current financial standing with banks.
  12. Monitor the Center COTR assignments and                         We identified seven instances where
                                                           No
      delegation.                                                     a COTR was not certified.
  13. Use virtual site visits to assess the progress                  This control is operating effectively
      on the contracts and ensure that contractors                    on Recovery Act contracts.
                                                           Yes
      are complying with contracting
      requirements.




REPORT NO. IG-12-009-R                                                                                        19
REDACTED FOR PUBLIC RELEASE                                                                          APPENDIX D




                                                CONTROLS RECOMMENDED IN PRIOR
                                                   AUDIT TO PREVENT AND DETECT
                                                              FRAUD AND ABUSE

     Our January 12, 2011, audit (IG-11-010) identified 24 controls that could prevent or
     detect fraud and abuse. Of those 24 controls, 14 had not been implemented by NASA at
     the time of our audit. This appendix table shows their implementation status as of
     November 2011.

     Fraud Category 1: Firms or Principal Investigators Received Duplicate Awards for Same Research

                                                     Covered by
                   IG-11-010-R                      Recovery Act
               Recommended Control                    Controls?                      Comments

     1. SBIR Program Management Office (PMO)            No         PMO does not have unilateral authority to
        performs automated word search of                          search across agencies. Thus, PMO officials
        (1) SBIR research proposals submitted to                   have been unable to run searches against the
        NASA and (2) research proposals funded                     Small Business Administration’s Tech-Net
        by other SBIR awards using the Electronic                  database and are working on a process to try
        Handbook (EHB) and the Small Business                      to implement searching this database. That
        Administration databases. Automated                        said, procedures in use include a two-pronged
        word search produces a report of research                  approach to search for duplicate proposals:
        proposals submitted to NASA that appear
        to duplicate proposals funded through                      1. Software Approach: When proposals are
        other SBIR awards. PMO enlists technical                      submitted, a software program is run on
        personnel to compare research proposals                       the proposal project description abstracts
        and verify whether a proposal a firm                          to check for duplicity. The software allows
        submitted to NASA duplicates a proposal                       the controller to set the percentage of
        that firm received SBIR award funding for                     duplicity they are looking for and
        from another Federal agency.                                  compares each of the abstracts.

        (Reference Control 4 in Appendix D of                      2. Manual Approach: When proposals are
        Audit Report IG-11-010-R.)                                    received, they are divided alphabetically
                                                                      by contractor name and assigned to a
                                                                      reviewer who reviews for duplicity, proper
                                                                      formatting, whether the use of Government
                                                                      facilities is required, and to ensure that the
                                                                      information in the proposal lines up with
                                                                      the electronic forms, among other things.

                                                                      In addition, NSSC service providers check
                                                                      proposal abstracts for duplicity, and report
                                                                      inconsistencies to the contracting officer.
                                                                      If a contractor submitted two proposals,
                                                                      the service providers check to see if they
                                                                      are similar.

                                                                   Summary: Control is partially implemented.




20                                                                                  REPORT NO. IG-12-009-R
APPENDIX D                                             REDACTED FOR PUBLIC RELEASE



  Fraud Category 1 (continued)

                                                   Covered by
                IG-11-010-R                       Recovery Act
            Recommended Control                     Controls?                     Comments

  2. PMO performs automated word search of            No         PMO does not have unilateral authority to
     (1) SBIR research proposals submitted to                    search across agencies. However, the search
     NASA, (2) research proposals funded by a                    procedures they use include a two-pronged
     NASA grant or contract, and (3) research                    approach to search for duplicate proposals
     proposals funded by another Federal                         (see comment to #1 above).
     agency under a grant or contract using the
     Electronic Handbook, NASA grant and                         Summary: This control is partially
     contract databases, and the General                         implemented.
     Services Administration Federal
     Procurement Data Systems database.
     Automated word search produces a report
     of research proposals submitted to NASA
     that appear to duplicate proposals funded
     through another Federal grant or contract.
     PMO technical personnel compare
     research proposals and verify whether
     research proposal that firm submitted to
     NASA duplicated proposal that firm
     received funding for from another Federal
     grant or contract.

     (Reference Control 5 in Appendix D of
     Audit Report IG-11-010-R.)




  Fraud Category 2: Contractors Submitted Questionable Research Product

                                                   Covered by
                  IG-11-010-R                     Recovery Act
              Recommended Control                   Controls                      Comments

  3. PMO performs automated word search of            No         The PMO does not have unilateral authority
     (1) SBIR research reports submitted to                      to search across agencies.
     NASA that year, (2) research reports
     submitted to NASA under a grant or                          However, the search procedures currently
     contract, and (3) research reports                          used include a 2-pronged approach to search
     submitted to other Federal agencies under                   for duplicate proposals:
     a grant or contract. PMO uses Electronic
                                                                 1. Software Approach: Once all of the
     Handbook, NASA grant and contract
                                                                    proposals have been submitted, a software
     databases, and the General Services
     Administration Federal Procurement Data                        program is run on all of the proposed
     Systems database. Automated word search                        project description abstracts to check for
                                                                    duplicity. The software allows the
     produces a report of research reports
                                                                    controller to set the percentage of duplicity
     submitted to NASA that appear to
                                                                    that they are looking for. It runs a check
     duplicate research reports submitted under
                                                                    comparing each and every one of the
     another Federal grant or contract. SBIR
     Program enlists technical personnel to                         abstracts against each other.
     compare the research reports. Technical



REPORT NO. IG-12-009-R                                                                                         21
REDACTED FOR PUBLIC RELEASE                                                                          APPENDIX D



     Fraud Category 2 (continued)

                                                      Covered by
                     IG-11-010-R                     Recovery Act
                 Recommended Control                   Controls                      Comments

        personnel verify whether research reports                   2. Manual Approach: Once all of the
        that firm submitted to NASA duplicated                         proposals have been submitted, end
        research reports that firm had submitted                       processing begins, where the proposals are
        under another Federal grant or contract.                       divided into alphabetical order by
                                                                       contractor name, assigned to a reviewer,
        (Reference Control 6 in Appendix D of                          and subsequently reviewed for duplicity,
        Audit Report IG-11-010-R.)                                     proper formatting, whether they require the
                                                                       use of government facilities, and to ensure
                                                                       that the information in the proposal lines
                                                                       up with the electronic forms, among other
                                                                       things.

                                                                    In addition, NSSC service providers check
                                                                    proposal abstracts for duplicity and report any
                                                                    inconsistencies to the contracting officer. If a
                                                                    contractor has submitted two proposals for
                                                                    funding, the service providers will check the
                                                                    abstract to see if they are similar.

                                                                    Summary: The control is partially
                                                                    implemented.




     Fraud Category 3: Firms and Principal Investigators Violated SBIR Program Requirements

                                                      Covered by
                     IG-11-010-R                     Recovery Act
                 Recommended Control                   Controls?                     Comments
     4. For each Principal Investigator (PI) being     In Part      NSSC makes sure that there is an actual
        considered for contract award:                              person employed as PI on the award and that
                                                                    PI is primarily employed by the Small
        • PMO performs automated search of the                      Business Concern at the time of the award.
          Small Business Administration’s                           For STTRs, PI can be employed by the Small
          Tech-Net database to obtain a report of                   Business Concern or the Research Institute.
          SBIR awards during a period;                              NSSC also checks that PI has not proposed
        • PMO uses an automated procedure to                        more work hours than the amount of hours
          group the report of SBIR awards into                      proposed for the work year.
          SBIR awards, by PI;
        • PMO uses an automated procedure to                        PMO stated that it is not yet possible to
          identify PIs that have more than 2                        perform automated searches of the Small
          SBIR awards during the period;                            Business Administration’s Tech-Net database.
                                                                    There is currently no way to perform
        • Contracting officer requests contractor                   automated searches by PI because there is no
          to provide percentage of time that PI                     unique identifier by PI across agencies.
          worked for firm during the period;                        Further, NASA is not able in input their data
                                                                    into other agencies’ websites.




22                                                                                   REPORT NO. IG-12-009-R
APPENDIX D                                             REDACTED FOR PUBLIC RELEASE



  Fraud Category 3 (continued)

                                                   Covered by
                  IG-11-010-R                     Recovery Act
              Recommended Control                   Controls?                      Comments

     • PMO obtains percentages of time PI                        Internally, when a proposal is received, the
       spent on SBIR awards that other                           amount of work performed by PI is evaluated.
       Federal agencies funded during the                        PI is essentially the coordinator of the work
       period; and                                               effort.
     • PMO and technical officer determine
       whether percentages of time appear                        Virtual site visits implemented for Recovery
       realistic for PI or indicate a potential                  Act awards were also used to verify the
       abuse (mischarging, unreported use of                     existence of PI. No issues were identified in
       subcontractor, or failure to perform                      this regard during the course of these site
       research). PMO refers questionable                        visits.
       firms, PI, and contracts to the OIG.
                                                                 Summary: The control is partially
     (Reference Control 8 in Appendix D of                       implemented.
     Audit Report IG-11-010-R.)



  Fraud Category 4: Actual Effort and Costs Differed Materially from What Was Negotiated

                                                   Covered by
                  IG-11-010-R                     Recovery Act
              Recommended Control                   Controls?                      Comments

  5. Contracting officer should verify the            No         According to NSSC there needs to be a
     firm’s labor rates with the Defense                         historical basis for the proposed rates. If they
     Contract Audit Agency (DCAA) for firms                      don’t have rates approved by another agency,
     that were audited; or with other funding                    NSSC will review the basis for the proposed
     agencies for firms that DCAA has not                        rates and make a determination as to whether
     audited                                                     the rates are reasonable.

     (Reference Control 15 in Appendix D of                      When the proposals are downloaded from
     Audit Report IG-11-010-R.)                                  Electronic Handbook, the service providers
                                                                 check Form C to determine if the contractor
                                                                 has listed a DCAA point of contact. The
                                                                 service providers will try to contact DCAA to
                                                                 verify whether the firm has approved/audited
                                                                 rates. Usually, small firms do not have
                                                                 audited/approved rates. The service providers
                                                                 try to verify the contractor’s proposed rates
                                                                 against rates already approved/audited by
                                                                 cognizant agency. As a last resort, the service
                                                                 providers may use the basis of the
                                                                 contractor’s rates. The contracting officers
                                                                 then review the information using their
                                                                 expertise to determine the rates fair and
                                                                 reasonable.

                                                                 Summary: The control is fully implemented.




REPORT NO. IG-12-009-R                                                                                           23
REDACTED FOR PUBLIC RELEASE                                                                           APPENDIX D



     Fraud Category 4 (continued)

                                                      Covered by
                     IG-11-010-R                     Recovery Act
                 Recommended Control                   Controls?                      Comments

     6. Technical officer prepares final                  No         Contract files are updated throughout the life
        performance file on Phase 2 contractor.                      of the contract; however, final documentation
                                                                     is normally placed in the files by the service
        (Reference Control 17 in Appendix D of                       providers before it is moved to closeout.
        Audit Report IG-11-010-R.)
                                                                     After the contracting officers receive the final
                                                                     invoice, they perform a final check to confirm
                                                                     all deliverables received and accepted. The
                                                                     contracting officer then approves and pays the
                                                                     invoice. The service providers then close the
                                                                     contract out but do not review the contract
                                                                     file once it has been closed.

                                                                     Summary: The control is fully implemented.



     Fraud Category 5: Contractors Misused SBIR Funds

                                                     Area Covered
                     IG-11-010-R                     by Recovery
                 Recommended Control                 Act Controls?                    Comments
     7. PMO and technical officers assess               In Part      All SBIR/STTR awards are firm-fixed-price
        indicators that firm will have excess cash                   contracts, and all costs were previously
        on a NASA SBIR contract. Excess cash                         negotiated. There were no instances of
        occurs when firm’s actual expenses are                       excess cash.
        materially less than proposed. PMO refers
        problematic firms to the OIG. Also, PMO                      Instances of substandard performance are
        assesses the following indicators:                           reviewed at NSSC. If a contractor has had a
         • Firm demonstrated substandard                             report of substandard performance it could
           performance. Substandard                                  stop them from being awarded a contract.
           performance can indicate firm spent                       During the proposal search for duplicate
           less on actual labor than it proposed.                    work, the technical reviewers will assess
                                                                     whether any documentation appears to be
         • Firm recycled or plagiarized reports.
           Recycled reports can indicate that firm                   recycled or plagiarized.
           had to submit report from prior                           Internally, the when a proposal is received,
           research as the deliverable because the                   the amount of work performed by the PI is
           firm did not spend contract funds on                      evaluated.
           researcher labor.
                                                                     Virtual site visits implemented for Recovery
         • Firm submitted duplicate proposals.                       Act awards were also used to verify the
           Duplicate proposals can indicate that                     legitimacy of the contractor’s facility.
           firm did not use actually conduct
           research.                                                 Labor rates are reviewed by NSSC to
         • PI has an unreasonable number of                          determine reasonableness; however, they are
           awards for period of contract. An                         not reevaluated when invoices are submitted.
           unreasonable number of awards can
           indicate that PI did not actually                         Summary: The control is partially
           perform research, firm used                               implemented.



24                                                                                    REPORT NO. IG-12-009-R
APPENDIX D                                               REDACTED FOR PUBLIC RELEASE



  Fraud Category 5 (continued)

                                                   Area Covered
                  IG-11-010-R                      by Recovery
              Recommended Control                  Act Controls?                    Comments
       subcontractor to perform research, or
       firm recycled old research.
     • Firm lacks a legitimate business
       facility. Lack of a business facility can
       indicate firm did little, if any, actual
       research.
     • Firm proposed higher labor rates than it
       actually paid. Higher proposed labor
       rates can indicate that firm knowingly
       proposed lower rates to provide firm
       excess cash.
     (Reference Control 18 in Appendix D of
     IG-11-010-R.)
  8. PMO reviews indicators identified in               No         All SBIR/STTR awards are firm-fixed-price
     Control No. 18 from IG-11-010-R against                       contracts, and all costs were previously
     the firm’s cost-type contracts. For each                      negotiated. There were no instances of cost
     SBIR contract identified at risk for fraud,                   overruns.
     waste, or abuse, the PMO will assess
                                                                   Summary: The control is partially
     whether the firm may have applied
                                                                   implemented.
     overruns on a NASA SBIR contract to a
     cost-type contract. PMO refers
     problematic firms to the OIG.
     (Reference Control 20 in Appendix D of
     Audit Report IG-11-010-R.)
  9. PMO reviews indicators in Control No. 18,          No         For Recovery Act contracts, contractors were
     above, against the firm’s contracts that                      required to certify quarterly that there was no
     have large indirect accounts. For each                        fraud, waste or abuse. The Recovery Act
     SBIR contract identified at risk for fraud,                   contracts were all firm-fixed-price contracts
     waste, or abuse, the SBIR PMO will assess                     and all costs were previously negotiated so
     whether the firm may have applied                             there were no instances of cost overruns.
     overruns on a NASA SBIR contract to
                                                                   The contracting officer did state that if there
     indirect accounts. SBIR PMO refers
                                                                   was an issue with costs, it would be flagged
     problematic firms to the OIG.
                                                                   on their internal checklist by the service
     (Reference Control 21 in Appendix D of                        providers. The contracting officer would
     Audit Report IG-11-010-R.)                                    work with the contractor to determine why
                                                                   the costs were misallocated or misclassified.
                                                                   In cases of fraud, the contracting officer
                                                                   would work with the PMO to take a technical
                                                                   look at the work. After the technical review,
                                                                   the Inspector General’s office would be
                                                                   contacted as needed and, if another level of
                                                                   review is needed, they would contact the
                                                                   Acquisition Integrity Program Office.
                                                                   Summary: The control is partially
                                                                   implemented.




REPORT NO. IG-12-009-R                                                                                           25
REDACTED FOR PUBLIC RELEASE                                                                             APPENDIX D



     Fraud Category 5 (continued)

                                                       Area Covered
                      IG-11-010-R                      by Recovery
                  Recommended Control                  Act Controls?                    Comments
     10. Contracting officer requires SBIR firms to    Yes – Control For Recovery Act contracts, key personnel
         describe researchers in progress reports.         No. 5     are verified at the time of selection by the
         Firms should identify personnel who                         proposal evaluation team. NSSC compares
         worked on the SBIR research during the                      the information from the proposal to the
         reporting period and describe their role.                   information on Form A. Also, the COTR/
         Contracting officer requires SBIR firms to                  technical monitor are required to complete a
         provide the names, phone numbers, and                       surveillance plan for each contract and
         email addresses of the PI, researchers, and                 provide quarterly reports to document various
         subcontract researchers.                                    information on the work being performed.
         (Reference Control 22 in Appendix D of                        Summary: The control is fully implemented
         Audit Report IG-11-010-R.)                                    with the Recovery Act Controls.
     11. Contracting officer requires SBIR firms to       In Part      NSSC personnel stated that for Recovery Act
         submit evidence with the firm’s invoice                       contracts this is difficult to complete because
         that firm has not billed NASA for                             normally the proposal only lists the key
         nonexistent employees. Evidence could                         employees whereas the labor dollars include
         include employee addresses or email,                          all people involved in the work. This is why
         written employment agreement, or other                        there is follow up on the virtual site visit to
         support.                                                      determine that the people proposed to work
        (Reference Control 23 in Appendix D of                         on the contract are actually the people that are
        Audit Report IG-11-010-R.)                                     engaged in the work.
                                                                     Summary: The control is partially
                                                                     implemented.
     12. PMO reviews indicators identified in          Yes – Control For Recovery Act contracts, contractors were
         Control No. 18 from report IG-11-010-R.           No. 7     required to certify quarterly that there was no
         For each SBIR contract identified at risk                   fraud, waste and abuse. Unallowable costs on
         for fraud, waste, or abuse, the SBIR PMO                    these Recovery Act contracts have not been a
         will assess whether the firm may have                       big issue, but there has been a problem with
         charged unallowable costs to a NASA                         unallowable cost of money being proposed.
         SBIR contract. PMO refers problematic                       The contracting officers are responsible
         firms to the OIG.                                           checking for unallowable costs.
        (Reference Control 24 in Appendix D of                         Summary: The control is fully implemented.
        Audit Report IG-11-010-R.)
     13. PMO reviews indicators identified in               No         For Recovery Act contracts, contractors were
         Control No. 18 from report IG-11-010-R.                       required to certify quarterly that there was no
         For each SBIR contract identified at risk                     fraud, waste and abuse. Also, this
         for fraud, waste, or abuse, the SBIR PMO                      information would be contained in section 8
         will assess whether the firm may have                         of the proposal which pertains to Company
         used funds from a NASA SBIR contract to                       information and Facilities and lists any
         support a commercial contract. PMO                            ongoing contracts the contractor has.
         refers problematic firms to the OIG.                          However, there is essentially no way to verify
        (Reference Control 25 in Appendix D of                         this being done because NASA doesn’t
        Audit Report IG-11-010-R.)                                     perform individual audits of other SBIR
                                                                       contracts that a contractor may have received
                                                                       funding on, in addition to their current NASA
                                                                       SBIR contract.
                                                                       Summary: The control is not implemented.



26                                                                                      REPORT NO. IG-12-009-R
APPENDIX D                                            REDACTED FOR PUBLIC RELEASE



  Fraud Category 5 (continued)

                                                Area Covered
                  IG-11-010-R                   by Recovery
              Recommended Control               Act Controls?                    Comments
  14. Technical officer compares actual labor        No         All SBIR/STTR awards are firm-fixed-price
      rates reported on invoice with verified                   contracts and all costs were previously
      rates.                                                    negotiated. There was no requirement to
                                                                break out costs by cost element on the
      (Reference Control 26 in Appendix D of                    contractor’s invoices.
      Audit Report IG-11-010-R.)
                                                                Summary: Per IG-11-010-R, the control is
                                                                partially implemented. NASA’s response
                                                                (Appendix E of IG-11-010-R) stated that
                                                                NASA will explore the option to implement
                                                                this control, but there is not a mechanism in
                                                                place Government- wide to compare actual
                                                                labor rates on an invoice with previously
                                                                verified rates for firm-fixed-price contracts.




REPORT NO. IG-12-009-R                                                                                           27
REDACTED FOR PUBLIC RELEASE                     APPENDIX E




                              MANAGEMENT COMMENTS




28                                   REPORT NO. IG-12-009-R
APPENDIX E               REDACTED FOR PUBLIC RELEASE




REPORT NO. IG-12-009-R                             29
REDACTED FOR PUBLIC RELEASE              APPENDIX E




30                            REPORT NO. IG-12-009-R
APPENDIX E               REDACTED FOR PUBLIC RELEASE




REPORT NO. IG-12-009-R                             31
REDACTED FOR PUBLIC RELEASE                                                   APPENDIX F




                                                       REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Deputy Administrator
     Chief of Staff
     Assistant Administrator for Procurement
     Chief Financial Officer
     Recovery Act Implementation Executive
     SBIR Program Executive
        SBIR Program Manager
        SBIR Business Manager
     NASA Advisory Council’s Audit, Finance, and Analysis Committee

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, NASA Financial Management, Office of Financial Management and
           Assurance
        Director, NASA Issues, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Science and Space
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Organization, Efficiency, and Financial Management
     House Committee on Science, Space, and Technology
        Subcommittee on Investigations and Oversight
        Subcommittee on Space and Aeronautics




32                                                                REPORT NO. IG-12-009-R
                                               REDACTED FOR PUBLIC RELEASE




Major Contributors to the Report:

   Laura Nicolosi, Director, Mission Support
   John Apker, Project Manager
   Myra Thompson, Lead Auditor
   Curt Brown, Procurement Analyst
   Arnold Pettis, Data Mining, Statistician




REPORT NO. IG-12-009-R                                                   33
REDACTED FOR PUBLIC RELEASE                                                         FEBRUARY 2, 2012
                                                                     REPORT No. IG-12-009-R




                                                                                 OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY12/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
